        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




 Audit Report
Bonneville Power Administration's
Transmission Vegetation
Management Program




OAS-L-14-05                    March 2014
                                 Department of Energy
                                     Washington, DC 20585

                                        March 31, 2014

MEMORANDUM FOR THE ADMINISTRATOR, BONNEVILLE POWER
               ADMINISTRATION



FROM:                    Jack Rouch, Director
                         Central Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Bonneville Power Administration's
                         Transmission Vegetation Management Program"

BACKGROUND

The Department of Energy's (Department) Bonneville Power Administration (Bonneville)
markets wholesale power produced from Federal water projects. Bonneville owns and operates
approximately 15,000 miles of transmission lines used to transmit power generated from Federal
and non-Federal sources to predominantly Oregon, Washington, Idaho, and Montana.

Bonneville's Transmission Vegetation Management Program (Vegetation Program) is
responsible for ensuring measures are in place to prevent physical contact between transmission
lines and nearby vegetation. If vegetation grows near or into electrical power lines, it can
interfere with electric power flow, pose safety problems to the general public, and cause power
outages. For example, inadequate vegetation management by two public utilities was identified
as the primary cause for the 2003 East Coast-Midwest electric power blackout, which affected
over 50 million people in the United States and Canada. Additionally, in 1996, a Bonneville
transmission line sagged into a tree and triggered a rolling blackout that affected approximately
10 million people on the West Coast. Bonneville's overall Vegetation Program budget for Fiscal
Year 2013 was approximately $14.9 million, with approximately $12.5 million provided to
contractors for performance of vegetation maintenance work.

Given the importance of vegetation management to the continuity of electrical transmission and
public safety, we conducted an audit to determine whether Bonneville had effectively managed
its Vegetation Program.

RESULTS OF AUDIT

Bonneville's Vegetation Program included a number of positive controls and technologies to
ensure vegetation surrounding its transmission lines were properly maintained. Specifically,
over the last 5 years, Bonneville utilized a Light Detection and Ranging (LiDAR) system to
inspect and detect vegetation conditions that required maintenance. LiDAR is a remote sensing
system used to collect topographic and geospatial data and has the capability to detect, with
nearly 100 percent accuracy, vegetation that requires maintenance. Additionally, Bonneville had
developed a continual vegetation monitoring program designed to ensure that all necessary
maintenance is completed. However, our review identified several opportunities to improve the
management of contractors that performed vegetation maintenance for Bonneville.

                              Vegetation Maintenance Contractors

We found that Bonneville could improve its processes for ensuring that its vegetation
maintenance contractors had performed adequately. Specifically, Bonneville inspectors and
contracted inspectors had not always documented their inspections of vegetation maintenance
contractors' work and/or re-work. The seven Bonneville inspectors informed us that they
performed spot checks on vegetation maintenance contractors' work, but only one inspector
could provide us with evidence of such review. Additionally, Bonneville inspectors informed us
that in some cases, deficiencies noted by contracted inspectors were not documented, but rather
verbally communicated to the vegetation maintenance contractors. Finally, we inquired of
Bonneville inspectors whether on-site quality assurance reviews of maintenance re-work
activities were performed and documented by the contracted inspectors and asked for examples
of such reviews. Only one inspector could provide us with evidence that a re-inspection had
occurred.

The Vegetation Program's Quality Assurance/Quality Control Measure policy, dated December
2008, requires both Bonneville and contracted inspectors to regularly conduct ground inspections
of the vegetation maintenance contractors' performance and create inspection records.
Bonneville officials manage and oversee contractors that perform vegetation maintenance
activities in nine geographic districts. As part of the vegetation management process, Bonneville
officials provided vegetation maintenance contractors with specific parameters detailing
necessary vegetation maintenance activities, including tree removal, mowing, and herbicide
spraying. Upon completion of work, contractors filled out daily activity logs, which were to be
utilized by Bonneville inspectors and/or contracted inspectors during on-site quality assurance
reviews. In the event contractors missed or did not complete vegetation maintenance tasks to the
assigned specifications, they were to be sent back to re-work these areas. All re-work activities
were then to be re-inspected by either a Bonneville inspector or a contracted inspector.

Bonneville Vegetation Program officials informed us that inspections of contractors' work were
not always documented because their staff interpreted the policy to be satisfied by their
inspection and approval of submitted invoices. Additionally, although the Quality
Assurance/Quality Control Measure policy required inspection records, there was no guidance on
how the inspections were to be documented. As a result of our audit, Vegetation Program
officials recognized the inconsistency in the recordkeeping and stated they had implemented a
standardized process for documenting inspections of contractors' work. Officials told us that
both Bonneville and contracted inspectors were now required to utilize a standardized form for
initial inspections and re-work inspections. Officials asserted that the documentation would
enable them to more effectively evaluate contractor quality of work by quantifying the number of
times each contractor had to redo work and ensure the completeness and quality of work
performed.



                                               2
Officials also informed us that they plan to incentivize high quality work by incorporating a
contract clause into future vegetation management contracts that would require vegetation
contractors to pay for re-inspection costs.

IMPACT AND PATH FORWARD

Without recording the results of inspections and re-inspections, program managers were unable
to ensure the quality and completeness of vegetation removal near transmission lines.
Additionally, unrecorded deficiencies may impact Vegetation Program managers' ability to
identify and take corrective actions against poor performing contractors. Bonneville recently
implemented a draft vendor scorecard policy that rated contactors' performance on each project
based on a number of factors including the percentage of re-work activities. Vegetation Program
officials can use inspection reports on the results of contractors' work to accurately quantify the
number of times contractors had to redo work and improve the results provided in the vendor
scorecard related to the percentage of re-work activities.

Because Bonneville initiated actions to ensure the inspectors' reviews were documented, we are
not making formal recommendations. However, to further improve Bonneville's Vegetation
Program, we suggest that the Administrator ensure Bonneville inspectors and/or contracted
inspectors document their quality assurance reviews of contractors' work and re-work activities.

This report is one of two audit reports on the Department's power marketing administrations'
vegetation management programs. Our other report, Western Area Power Administration's
Rocky Mountain Regional Office's Transmission Vegetation Management Program (OAS-L-14-
06, March 2014), also disclosed issues regarding management of vegetation maintenance
contractors.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Science and Energy
    Chief of Staff




                                                 3
                                                                                       Attachment


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of the audit was to determine whether Bonneville Power Administration
(Bonneville) had effectively managed its Transmission Vegetation Management Program
(Vegetation Program).

SCOPE

The audit was performed between May 2013 and March 2014, at Bonneville in Vancouver,
Washington. The audit was conducted under Office of Inspector General Project Number
A13DN034.

METHODOLOGY

To accomplish our objective, we:

    •   Obtained and reviewed policies, procedures, laws, and regulations related to
        Bonneville's Vegetation Program;

    •   Interviewed key officials to obtain an understanding of Bonneville's Vegetation
        Program;

    •   Sent a questionnaire to all seven Bonneville inspectors to understand the vegetation
        management processes;

    •   Evaluated whether Bonneville had effective practices in place to inspect vegetation
        surrounding its transmission lines to determine the necessity of maintenance;

    •   Determined whether Bonneville had conducted necessary vegetation maintenance
        surrounding its transmission lines; and

    •   Evaluated the internal controls in place over Bonneville's vegetation maintenance
        contractors.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations necessary to satisfy the audit
objective. In particular, we assessed Bonneville's implementation of the GPRA Modernization
Act of 2010 and found Bonneville had established performance measures. Because our review

                                               4
                                                                         Attachment (continued)

was limited, it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our audit. We conducted an assessment of computer-processed data
relevant to our audit objective and found that it could be relied on. An exit conference was
waived by Bonneville management on March 19, 2014.




                                                5
                                                                    IG Report No. OAS-L-14-05

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form.
